b-




                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

Case Number: I02010003                                                                    *   Page 1 of 1



            1. In Januarv 2002, information was received from the Division of Financial Management (DFM)
               that                   a Principal Investigator (PI) on several Small Business Innovation
               Research (SBIR) awards with NSF, had allegedly created .several separate, and possibly
               illegitimate, companies in order to receive NSF awards. Additional concern involves the
                submission of duplicate or overlapping proposals through these various companies. All
               relevant NSF awards were identified and grant files were reviewed. Our review did not identify




                                                                               *
                any obvious illegitimate companies or duplicate proposals.

            2. Between 1993 and the present,         was associated as PI and/or owner with five different
               companies that received SBIR awards from NSF and other agencies.            was involved
               concurrently with multiple SBIR firms funded by NSF. Often,           would be closing
               one firm while developing another. We found that          always disclosed his various
               business associations to NSF and produced the research reports required under the NSF
               SBIR awards. NSF accepted these disclosure and reports. We found no evidence that
               p r o v i d e d misleading or false information to NSF involving his relationships with
               these companies.

            3. Our review found no overlapping research by            five companies through NSF SBIR
               awards. In addition, we found no actionable duplicate awards from other SBIR agencies.
               Through the review of online abstracts, we found an overlapping DARPA and NSF awards
               in 1998 to          company                    Products. However,          disclosed in the
               NSF proposal that DARPA had previously awarded similar research and described the
               differences in the NSF and DARPA research projects. Because NSF reviewed and
               accepted           disclosure and funded the similar award, we did not request and review
               the DARPA file.

           4. No further evidence was found to further support an investigation. This investigation is
              closed and no fw-ther action is being taken by OIG at this time.




                            Agent                   Attorney               Supervisor                 AIGI

     Sign 1 date
a . -
             ."
        I
                                                           NATIONAL SCIENCE FOUNDATION
                                                            OFFICE OF INSPECTOR GENERAL
                                                             OFFICE OF INVESTIGATIONS

                                                        CLOSEOUT ADDENDUM

            Case Number: I0201003                                                                    Page 1 of 1



                  This case was originally closed 22 August 2002 for an absence of evidence to support the allegation
                  of false statements concerning duplicate proposals. However, our office received two DCAA Audit
                  reports which noted some accounting deficiencies in an accounting system survey and timekeeping
                  procedures. These audits were forwarded to our office by an NSF Financial Review and Cost
                  Analyst1 who questioned whether NSF should release SBIR Phase 11funds to this company. An
                  analysis of the DCAA audits reveals the company corrected the timekeeping deficiencies and
                  attempted to correct the remaining accounting system survey deficiencies. Although not all problems
                  were corrected, a telephone call to the cognizant DCAA auditor2indicated the company was clearly
                  making every effort to correct these problems. The DCAA auditor did not appear concerned with the
                  accounting systems as no new or follow-up audits of the company are currently scheduled.
                  According to the auditor, DCAA will perform another routine audit in one year if DoD continues to
                  provide funds to the company. A review of the audit reports and related documents by a member of
                  O I G - A U did
                                ~ ~not
                                    ~ ~raise any concerns. Accordingly, I telephoned the NSF Financial Review and
                  Cost Analyst stating that OIG-Investigations and OIG-Audit would not be performing any additional
                  inquiries concerning this company at this time. Our office did not offer any opinion regarding the
                  release of the SBIR Phase I1 funds.

                  This case remains closed.




                  ' [Redacted]
                    [Redacted]
                    [Redacted]


                                     Agent                  Attorney                Supervisor                 AIGI

              Sign 1 date

                                                                                                       OIG Form 2 (2102)
